Serial: 218595 FILED

IN THE SUPREME COURT OF MISSISSIPPI MAY -8 2018

No. 2017-M-01538 OFFICE OF THE CLERK
. SUPREMI
COURT OF APREALS

PATRICIA ANN BROWN Petitioner

ve

STATE OF MISSISSIPPI Respondent

ORDER

 

This matter is before the panel of Waller; C.J., Coleman and Maxwell, JJ., on Patricia

Ann Brown’s Application to Proceed in Trial Court -for Post-Conviction Relief, filed by-
‘counsel. Brown's conviction of possession of cocaine and sentence as a habitual offender
to life in the. custody of the Mississippi Department of Corrections, without eligibility of
parole, were affirmed on direct appeal,-and the. mandate.issued.on July 22,2010. Brown v.
State, 37 So. 3d: 1205 (Miss. Ct. App. 2009).

The instant application for leave-is Brown's fourth. The panel finds the application
to be barred by time and as a successive application, and it does not meet any. of the
exceptions. Miss. Code Ann. §§ 99-39-5(2) and 99-39-27(9), Additionally, the first issue
taised in the instant application for leave was previously raised an rejected in Brown’s third
application. Therefore, it is barred by the doctrine of res judicata as well. Miss. Code Ann.
§ 99-39-21(3). The panel is not persuaded by Brown’s argument that Sessions v. Dimaya,
___US.__, 2018 WL 1800371 (U.S, Apr. 17, 2018) is an intervening case that “would

have actually adversely affected the outcome of [her] conviction or sentence.” Miss, Code

APPENDIX D
Ann. § 99-39-27(9), Not withstanding these bars, the panel also finds the issues to be
without merit. Accordingly, the application for leave should be dismissed.

Brown is warned that future filings in this matter which fail to meet the exceptions to
the successive writ bar may be deemed frivolous and may result in the imposition of
appropriate sanctions,

ITIS THEREFORE ORDERED that Patricia Ann Brown’s Application to Proceed
in Trial Court for Post-Conviction Relief is hereby dismissed.

ITIS-PURTHER ORDERED that any future frivolous'filings may subject Brown to
sanctions, pursuant to. Rule 22(a) of the Mississippi.Rules of Appellate. Procedure,

SO ORDERED, this the ooh day of May,.2018:

 
   

D. COLEMAN, JUSTICE:
